HHS/OIG, Audit -"Nebraska Medicaid Payments for Skilled Professional Medical Personnel,"(A-07-05-03067)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nebraska Medicaid Payments for Skilled
Professional Medical Personnel," (A-07-05-03067)
May 17, 2006
Complete
Text of Report is available in PDF format (426 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if the Nebraska Department of Health and Human
Services, Finance and Support (State agency) properly claimed payments for skilled professional
medical personnel at the enhanced Federal funding rate for fiscal year (FY) 2003. We found
that the State agency did not properly claim payments for skilled professional medical personnel
at the enhanced Federal funding rate for FY 2003.  Specifically, the State agency claimed
costs for:  (1) personnel who did not meet the education requirements, (2) personnel
in positions that did not require medical expertise, (3) directly supporting staff who did
not meet supervision or job responsibility requirements, and (4) activities that did not
require medical knowledge or skills.  The State agency improperly claimed operating
costs at the enhanced rate and claimed some duplicate costs.
We recommended the State agency should:  (1) remit the $248,660 for duplicate claims
to the Federal Government, (2) refund $292,903 to the Federal Government for costs improperly
claimed at the enhanced rate, (3) work with CMS to resolve the $619,219 set aside because
the State agency improperly claimed personnel costs related to claims processing, and (4)
develop and implement policies and procedures for claiming skilled professional medical personnel
expenditures and monitoring payments.  The State agency either agreed or partially agreed
with the four recommendations.